APPENDICES

1a
APPENDIX A

People v Hernandez
APPLICATIONS IN CRIMINAL CASES FOR LEAVE
TO APPEAL
denied 8/24/20 (Feinman, J.)

2a
APPENDIX B

The People of the State of New York, Respondent,
v
Pedro Hernandez, Appellant.
Supreme Court, Appellate Division, First
Department, New York
11259, 4863/12, M-430
March 26, 2020
Robert S. Dean, Center for Appellate Litigation, New
York (Ben A. Schatz of counsel), for appellant.
Cyrus R. Vance, Jr., District Attorney, New York
(Vincent Rivellese of counsel), for respondent.
The Legal Aid Bureau of Buffalo, Inc., Buffalo (Erin
A. Kulesus of counsel), for Chief Defenders
Association of New York, amicus curiae.
Simpson Thacher & Bartlett LLP, New York (Mark
Stein of counsel), for The Innocence Project Inc.,
amicus curiae.
Judgment, Supreme Court, New York County
(Maxwell Wiley, J.), rendered April 18, 2017,
convicting defendant, after a jury trial, of murder in
the second degree and kidnapping in the first degree,
and sentencing him to concurrent terms of 25 years to
life, unanimously affirmed.
The
court
properly
denied
defendant’s
suppression motion. There is no basis for disturbing
the hearing court’s factual determinations. The
hearing record establishes that, under the totality of
circumstances, defendant’s statements made before
he received Miranda warnings were not the product

3a
of custodial interrogation, because a reasonable
innocent person in defendant’s position would not
have thought he was in custody (see People v Yukl, 25
NY2d 585 [1969], cert denied 400 US 851 [1970]).
Defendant voluntarily accompanied the detectives to
a New Jersey police station, where he was not locked
into the facility, handcuffed or restrained, and he was
permitted to move around in a manner that was
inconsistent with a custodial setting. The detectives
repeatedly told defendant he was free to leave. In the
context of all the surrounding circumstances, those
explicit assurances were not undermined when, on
several occasions, the detectives expressed their
preference that defendant complete the interview
before he left or spoke to his wife, and defendant
voluntarily opted to continue. Furthermore, the
interview was never hostile or accusatory.
The court also correctly determined that
defendant made a knowing and intelligent waiver of
his Miranda rights. The evidence, including the
videotape of defendant’s ultimate interview by an
Assistant District Attorney as well as expert
testimony presented by both sides, supports the
conclusion that defendant was not so mentally ill,
lacking in intelligence, or impaired by medication that
he was incapable of intelligently waiving his rights
(see People v Williams, 62 NY2d 285 [1984]). An
interchange between defendant and the interviewing
Assistant, in which defendant asked intelligent
questions about his right to counsel and received
appropriate answers, demonstrates defendant’s
ability, rather than inability, to understand his rights.
The verdict was based on legally sufficient
evidence and was not against the weight of the
evidence (see People v Danielson, 9 NY3d 342, 348-349
[2007]). Initially, we find that defendant’s confession

4a
was corroborated to the limited extent required by
CPL 60.50. That statute is satisfied by the production
of “some proof, of whatever weight, that a crime was
committed by someone” (People v Chico, 90 NY2d 585,
589 [1997]). Here, the unexplained disappearance in
1979 of six-year-old Etan Patz, who has not been
located or heard from since, presented strong
circumstantial evidence that he was kidnaped and
murdered (see People v Lipsky, 57 NY2d 560, 571-572
[1982]).
Next, we find that defendant’s confession to law
enforcement was reliable and truthful. Defendant
offered certain details without any prompting, such as
offering Etan a soda, that were consistent with other
evidence. Defendant also led detectives to the place
where he thought he had left the body, but expressed
uncertainty because of the presence of a door;
detectives later learned that the owner had installed
the door after 1979. Defendant made generally similar
admissions to civilians over a period ranging from
shortly after Etan’s disappearance to immediately
after he confessed to the authorities. Defendant’s
account was consistent with his admissions at a
religious retreat, where he told fellow participants
that he had strangled a boy while working at a store,
and placed his body in a bag, which he put with the
trash. After his confession to law enforcement,
defendant also admitted to his wife and daughter that
he had killed a boy, and told a nurse that he had
choked a person 33 years earlier. Any inconsistencies
within defendant’s confession, or between that
confession and his admissions to civilians, or between
his various statements and other evidence in the case,
were sufficiently explained. The evidence does not
support defendant’s claim that he gave a false
confession due to a susceptibility resulting from

5a
mental impairment. Aside from the fact that
defendant volunteered essentially the same
admission to civilians, the evidence showed that
defendant lived as a well-functioning, employed
family man for many years, and the jury could have
reasonably rejected the expert testimony introduced
by defendant regarding his mental condition.
Furthermore, there is no evidence that the facts
stated in defendant’s confession were contaminated
by police suggestion or otherwise.
We also find that evidence regarding the possible
culpability of an alternative suspect was too weak to
affect the weight of the evidence establishing
defendant’s guilt. Although the other suspect was a
convicted child molester, his admission that on the
day Etan disappeared, he had sexually molested a boy
named “Jimmy,” whom he brought to his apartment
and then put on a subway to his aunt’s home, had
little connection with the facts of this case.
The evidentiary rulings challenged on appeal
were provident exercises of discretion that did not
impair defendant’s right to present a defense or any
other constitutional right (see Crane v Kentucky, 476
US 683, 689-690 [1986]). Defendant had an ample
opportunity to introduce evidence about the abovediscussed alternative suspect, and the evidence
offered by defendant relating to yet another possible
suspect was so remote as to be irrelevant (see People v
DiPippo, 27 NY3d 127, 135-136 [2016]). With regard
to hearsay evidence offered by both sides, the court
properly concluded that the evidence offered by the
People was admissible, not for its truth, but for
legitimate nonhearsay explanatory purposes (see
People v Tosca, 98 NY2d 660 [2002]), while the
evidence offered by defendant was not admissible on
that, or any other basis (see

6a
793, 795 [2006]). The court also providently exercised
its discretion in precluding expert testimony on the
effect on memory of a lengthy passage of time, because
the proposed testimony was within the jurors’
ordinary experience and knowledge. We reach similar
conclusions as to the other evidentiary issues raised
on appeal, including defendant’s constitutional
claims.
The court provided a meaningful response to a
jury note on the subject of the voluntariness of
confessions (see generally People v Almodovar, 62
NY2d 126, 131 [1984]; People v Malloy, 55 NY2d 296,
302 [1982], cert denied 459 US 847 [1982]). Given the
precise wording of the note, the court’s brief response
was correct. Even assuming, without deciding, that
the court should have added instructions on the
circumstances whereby a statement may or may not
be attenuated from a prior statement found to be
involuntary, there is no reasonable possibility that the
verdict would have been different had those
instructions been given (see People v Petty, 7 NY3d
277, 286 [2006]; People v Jones, 3 NY3d 491, 497
[2004]), in light of the strong evidence that
defendant’s confession to the Assistant District
Attorney was fully attenuated from all of his
confessions to the police, as well as being corroborated
by defendant’s various confessions to civilians.
The court providently exercised its discretion in
denying, without an evidentiary hearing, defendant’s
CPL 330.30 (2) motion to set aside the verdict on the
ground that the jury had been improperly influenced
by extraneous information (see People v Samandarov,
13 NY3d 433, 436-438 [2009]). Defendant did not
provide affidavits from anyone with first-hand
knowledge of the material facts. While affidavits in
support of such a motion may be based on information

7a
and belief, here the “information” in a defense
investigator’s affidavits was limited to news media
accounts, along with statements by a juror and an
alternate that failed to support, or contradicted,
defendant’s theory of improper influence. None of this
information was sufficient to require a hearing (see
id.). Defendant acknowledged his inability to provide
more information, and he was not “entitled to a
hearing based on expressions of hope that a hearing
might reveal the essential facts” (People v Brooks, 134
AD3d 574, 576 [1st Dept 2015], affd 31 NY3d 939
[2018]). Furthermore, defendant did not demonstrate
that the extraneous information allegedly made
known to the jury had any effect on its deliberations,
or that it was inherently prejudicial.
We perceive no basis for reducing the sentence.
We have considered and rejected defendant’s
remaining claims. Concur—Friedman, J.P., Kern,
Oing and González, JJ.
Motion to file amicus curiae brief granted, and the
brief deemed filed.

8a
APPENDIX C
SUPREME COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK: PART
42
----------------------------------------------x
THE PEOPLE OF THE STATE
OF NEW YORK,
-againstPEDRO HERNANDEZ
DEFENDANT

DECISION AND
ORDER
Third Party
Culpability
Indictment No.
4863/12

----------------------------------------------x

MAXWELL WILEY, J.:
The court is in receipt of motions from both the
defendant and the People seeking to allow the
introduction of certain evidence at trial. The
defendant has raised the defense of third party
culpability and seeks to introduce evidence in support
of that defense—evidence that might not normally be
admissible under the rules of evidence. The People
seek to introduce certain information regarding the
defendant’s background to rebut the defendant’s
anticipated psychiatric defense. The court addressed
these motions during pretrial proceedings on
December 15 and December 17, 2015. The court
issued a number of oral rulings on the latter date
regarding the defendant’s motion, described as
follows.
By motion dated November 4, the defendant
moves to admit evidence implicating Jose Ramos,
Othniel Miller, “and other people in the Soho
neighborhood” in the crimes charged in this
indictment. By affirmation dated November 17, the

9a
People oppose portions of the defense motion and
move to exclude certain evidence pertaining to other
crimes allegedly committed by the third parties
(“Third Party Propensity Evidence”).
As the court indicated at the December 17
proceeding, the defendant’s motion is granted to the
same extent as in the first trial of this indictment.
That is, the defense will be permitted to offer evidence
of Jose Ramos’s participation in the crimes charged.
As an initial matter, this means that the defense may
call Jose Ramos as a witness, but only after a
determination of whether Ramos will invoke his Fifth
Amendment privilege. As in the first trial, this
determination will be made outside the jury’s
presence, Ramos having been given an opportunity to
confer with counsel. The defendant’s motion to require
that Ramos’s invocation be performed in front of the
jury, or, in the alternative, that the jury be instructed
as to the reason for his unavailability, is denied.
[Note: On February 11, 2016, Jose Ramos was
produced in Part 42 from the Pennsylvania
Department of Corrections. Ramos, through his
attorney, stated that he would not testify at the trial
in this case.]
Assuming Ramos continues to invoke his Fifth
Amendment privilege—as he did at the first trial—the
defense will be permitted to offer competent evidence
of declarations against penal interest made by Ramos.
These include statements made by Ramos about the
crimes charged in this indictment to Stuart GraBois,
Jeffrey Rothschild, and others. The defense is also
permitted to introduce evidence of statements made
by Ramos to Frank Carroll, a Bronx Assistant District
Attorney. The People’s motion to redact portions of
those statements not directly about the Etan Patz
disappearance is denied. The court finds the entirety

10a
of the statements—as they are recorded on
videotape—to be of enough relevance to the issue of
Ramos’s guilt to be admissible.
In addition, the defense will be permitted to
introduce evidence of the November 1988 statement
made by Barrett Harrington, now deceased, to law
enforcement.
Evidence about Ramos’s residency at 234 East 4th
Street at the time of the crimes in this case is
admissible, either through witnesses to Ramos’s own
statements or through witnesses with direct
knowledge of it. Likewise, any evidence that Ramos
was in the company of Etan
Patz at any time will be permitted—again, if the
defense can produce any witness with direct evidence
of that.
Evidence of Ramos’s criminal history is permitted
to the extent that the defense may offer into evidence
authenticated certificates of conviction from Ramos’s
Pennsylvania cases. As in the first trial, the defense
application to admit evidence of a wrongful death
action brought against Jose Ramos by the Patz family
is denied. Evidence of neither the lawsuit nor the
default judgment entered against Ramos will be
admitted.
The defendant seeks to introduce other evidence
of Ramos’s criminality, including testimony about his
statements concerning crimes against children in a
New Orleans hospital; his travels to “Rainbow family”
gatherings; and his threats against Stuart GraBois. In
addition, the defense now seeks to admit a statement
made by Ramos to a Pennsylvania corrections officer
in which Ramos threatened to kill the officer and
make him “disappear.” As in the first trial, this
evidence is remote from the question of Ramos’s guilt

11a
of the crimes charged in this case, and this evidence
should not be admitted at trial, but the defendant is
permitted to make further argument at trial.
Regarding Othniel Miller, the defense (or the
People, if they choose) may seek to elicit relevant
testimony from him. The defense is not permitted to
introduce evidence about statements Miller made to
the FBI in 2012. Nor is the defense permitted to elicit
testimony about the actions of a “scent dog” in 2012 at
127B Prince Street.
Finally, the defense will not be permitted to offer
evidence regarding the NYPD investigations into “the
North American Man Boy Love Association [and]
other known pedophiles in the SoHo area....”
This shall constitute the decision and order of this
court.
DATED: New York, New York
March 2016
/s/handwritten signature
MAXWELL WILEY, J.X.C.

